NATIONAL OCEANIC
AND ATMOSPHERIC
ADMINISTRATION

Audit of Geostationary
Operational Environmental
Satellite–R Series:
Comprehensive Mitigation
Approaches, Strong
Systems Engineering,
and Cost Controls Are
Needed to Reduce Risks
of Coverage Gaps
FINAL REPORT NO. OIG-13-024-A
APRIL 25, 2013


U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation


FOR PUBLIC RELEASE
                                                   UNITED STATES DEPARTMENT OF COMMERCE
                                                   Office of Inspector General
                                                   Washington, D.C. 20230




April 25, 20 13

MEMORANDUM FOR: 	 Dr. Kathryn D. Sullivan
                  Acting Under Secretary of Commerce for Oceans




FROM:                        :~::~::~:r~                             c~
                             Assistant Inspector General for Systems Acquisition
                             and IT Security

SUBJECT: 	                   Audit of Geostationary Operational Environmental Sate/lite-R Series:
                             Comprehensive Mitigation Approaches, Strong Systems Engineering,
                             and Cost Controls Are Needed to Reduce Risks ofCoverage Gaps
                             Final Report No. OIG-13-024-A

Attached is our final audit report on the Geostationary Operational Environmental Satellite-R
Series (GOES-R) acquisition and development effort. Our audit objectives were to assess (I)
the adequacy of contract management and administration and (2) the effectiveness of
management's direction, monitoring, and collaboration for development of select components
of the GOES-R program.

We found that:

   • 	 NOAA needs to develop a comprehensive plan to mitigate the risk of potential launch
       delays and communicate to users and other stakeholders changes that may be necessary
       to maintain the first GOES-R satellite's launch readiness date.

   • 	 Program systems engineering has been strengthened; however, early in system
       development, it contributed to ground system schedule compression and increased
       costs. To ensure continued strength, NOAA must report on the adequacy of program
       systems engineering (including National Aeronautics and Space Administration support)
       for the integration and test phase of the program.

   • 	 NOAA needs to ensure NASA's evaluation of contractors' proposals and subsequent
       plans is effective in assessing technical readiness to reduce delays and cost increases.

   • 	 The award fee structures for some NASA contracts did not incentivize contractors to
       perform at exemplary levels; in one case, a contractor received award fees that were
       not commensurate with its performance.

   • 	 NOAA lost the opportunity to negotiate on a significant amount of costs for ground
       system contract changes because it did not finalize these changes in a timely manner.
 


In responding to the draft report, NOAA concurred with five of our seven recommendations.
NOAA did not concur with two of the seven recommendations, or with our assessment that
these particular recommendations would improve the effectiveness of contractor incentives for
controlling cost overruns and improving performance. However, we affirm our position and
stand behind all of our findings and recommendations. Where necessary, we modified the final
report to address relevant comments. We have summarized NOAA’s response and included its
entire formal response as appendix E. The final report will be posted on OIG’s website
pursuant to section 8L of the Inspector General Act of 1978, as amended.

In accordance with Department Administrative Order 213-5, please provide us your action plan
within 60 days of this memorandum. The plan should outline the actions you propose to take
to address each audit recommendation.

Please direct any inquiries regarding this report to me at (202) 482-1855, or Fred Meny,
Director, Satellites and Weather Systems, at (202) 482-1931.

Attachment

cc:	     David Kennedy, Deputy Under Secretary for Operations, NOAA
         Mary E. Kicza, Assistant Administrator for Satellite and Information Services, NOAA
         Geovette E. Washington, Deputy General Counsel
         Mack Cato, Director, Office of Audit and Information Management, NOAA
                                                   Report In Brief                                        APRIL 25, 2013




Background                                NATIONAL OCEANIC AND ATMOSHERIC ADMINISTRATION
One of the primary functions of
NOAA’s National Environmental             Audit of Geostationary Operational Environmental Satellite–R Series:
Satellite, Data and Information           Comprehensive Mitigation Approaches, Strong Systems Engineering,
Service (NESDIS) is to acquire and
manage the nation's operational           and Cost Controls Are Needed to Reduce Risks of Coverage Gaps
environmental satellites. One type
                                          OIG-13-024-A
of satellite NESDIS operates is the
geostationary operational environ-        WHAT WE FOUND
mental satellites (GOES)—which
orbit approximately 22,300 miles          We found that:
above Earth, producing images               NOAA needs to develop a comprehensive plan to mitigate the risk of potential launch delays and
every 15 minutes. They provide              communicate to users and other stakeholders changes that may be necessary to maintain the first
cloud, land, and ocean temperatures;        GOES-R satellite’s launch readiness date. Schedule slips and a potential reduction in testing
monitor sun activities; and assist with     activities have raised concerns about the satellite’s readiness to launch. Cost increases and
search and rescue activities.               budget shortfalls may also delay development and launch. Further, scope reductions and
NOAA, in conjunction with the               delays are diminishing the satellite’s operational capabilities.
National Aeronautics and Space              Program systems engineering has been strengthened; however, early in system development, it
Administration (NASA), is devel-            contributed to ground system schedule compression and increased costs. NOAA accepted a core
oping the next generation of                ground system development approach that was not flexible, resulting in increased costs. To
GOES satellites known as the                re-plan the core ground system increases schedule risks. A lack of program systems
GOES-R Series of four satellites            engineering leadership further prolonged the coordination problem.
(GOES-R, -S, -T and -U). The
first satellite in the series, GOES-        NOAA needs to ensure NASA’s evaluation of contractors’ proposals and subsequent plans is 

R, is scheduled for launch in Oc-           effective in assessing technical readiness to reduce delays and cost increases. Contract award 

tober 2015.                                 prices were significantly less than program estimates. The technical evaluation of an 

                                            important contractor-designed instrument was inadequate. And award fees did not 

Why We Did This Review                      effectively incentivize exemplary performance or sufficient cost control. 

The GOES-R program is a mis-                NOAA lost the opportunity to negotiate on significant costs for ground system contract changes
sion-critical acquisition and devel-        because it did not finalize these changes in a timely manner. The lack of undefinitized contract
opment effort with a life-cycle             action (UCA) time limit and cost incurred tracking policy—as well as the UCAs’ large
cost of $10.9 billion. The pro-             scope—led to definitization delays. Further, the high UCA cost limits create disincentive for
gram engages multiple contrac-              timely definitization.
tors and as it prepares for its
integration and test phase, close         WHAT WE RECOMMEND
management attention is re-               We recommend that the NOAA Deputy Under Secretary for Operations:
quired. The increasing risk associ-
                                            1. Develop a comprehensive set of tradeoff approaches to mitigate launch delays and 

ated with meeting key milestones
                                               communicate approaches to stakeholders and users. 

in preparation for the first satel-
                                            2. Keep stakeholders and users informed of tradeoffs made to meet the launch date.
lite’s launch readiness date of
                                            3. Direct NESDIS to report periodically on the adequacy of program systems engineering
October 2015 necessitated our
                                               integration and NASA systems engineering support.
review.
                                          We also recommend that the NOAA Assistant Administrator for Satellite and Information
Our audit sought to assess (1)            Services ensure that NASA:
the adequacy of contract man-
                                            4. Effectively validates contractors’ proposals and subsequent plans, to verify that technical
agement and administration
                                               designs meet readiness requirements per NASA standards.
and (2) the effectiveness of
                                            5. Modifies contract award-fee structures to reduce award fee percentages and clearly

management’s direction, moni-
                                               articulates how scores should be adjusted based on the magnitude of cost overruns. 

toring, and collaboration for
                                            6. Adjusts future award fees to be more commensurate with contractor performance.
development of select compo-
nents of the GOES-R program.              We further recommend that the NOAA Deputy Under Secretary for Operations:
                                            7. Direct the development of a policy for managing undefinitized contract actions to 

                                               definitize change orders in the shortest practicable time.

  DEPARTMENT OF COMMERCE
U.S.                                                                                                                             OFFICE OF INSPECTOR GENERAL


Contents 

Introduction ........................................................................................................................................................................ 1 

Findings and Recommendations ..................................................................................................................................... 4 

    I. 	 NOAA Must Keep Stakeholders Continuously Apprised of Approaches to Mitigate the Likelihood 

         of a Two-Imager Coverage Gap ............................................................................................................................. 4 

          A. Schedule Slips and Potential Reduction in Testing Activities Raise Concerns About GOES-R 

             Readiness to Launch........................................................................................................................................... 6 

          B. Cost Increases and Budget Shortfalls May Delay GOES-R Development and Launch ...................... 6 

          C. Scope Reductions and Delays Are Diminishing GOES-R Operational Capabilities ........................... 7 

          D. A Comprehensive Set of Alternative Approaches for Mitigating a Launch Delay Has Not 

             Been Developed .................................................................................................................................................. 8 

    II. NOAA Needs to Ensure That Systems Engineering Remains Engaged in Coordinating the Flight 

        and Ground Projects ................................................................................................................................................. 9 

          A. NOAA Accepted a Core Ground System Development Approach That Was Not Flexible, 

             Resulting in Increased Costs ............................................................................................................................ 9 

          B. Prolonged Time to Re-plan the Core Ground System Introduced New Schedule Risks ...............10 

          C. Lack of Program Systems Engineering Leadership Prolonged the Coordination Problem .............11 

    III. NOAA Needs to Improve Flight Project Technical Oversight of NASA’s Contractors and Award 

         Fee Measures to Limit Further Cost Overruns ................................................................................................ 11 

          A. Contract Award Prices Were Significantly Less Than Program Estimates .........................................13 

          B. Technical Evaluation of GLM Design Was Inadequate ............................................................................ 14 

          C. Award Fees Did Not Effectively Incentivize Exemplary Performance or Sufficient 

             Cost Control ..................................................................................................................................................... 14 

    IV. NOAA Needs to Improve Management of Undefinitized Contract Actions (UCAs) ............................17 

          A. Lack of UCA Time Limit And Cost Incurred Tracking Policy Led to Definitization Delays ..........18 

          B. The Large Scope of UCAs Resulted in Delays .......................................................................................... 19 

          C. High UCA Cost Limits Create Disincentive for Timely Definitization................................................19 

Summary of Agency Response and OIG Comments .............................................................................................. 21 

Appendix A: Objectives, Scope, and Methodology ................................................................................................. 28 

Appendix B: GOES-R Suite of Instruments ............................................................................................................... 29 

Appendix C: Potential Monetary Benefits ................................................................................................................. 30 

Appendix D: Award-Fee Structure Scoring for ABI, GLM, and Spacecraft Contracts ...................................31 

Appendix E: Agency Response ..................................................................................................................................... 32 





 
  DEPARTMENT OF COMMERCE
U.S.                                                                                OFFICE OF INSPECTOR GENERAL


Introduction 

One of the primary functions of the National Oceanic and Atmospheric Administration’s
(NOAA’s) National Environmental Satellite, Data and Information Service (NESDIS) is to
acquire and manage the nation's operational environmental satellites. NESDIS operates two
types of satellite systems for the United States: geostationary operational environmental
satellites (GOES) and polar-orbiting operational environmental satellites (POES). GOES
satellites are in geosynchronous orbit, approximately 22,300 miles above Earth, producing
images every 15 minutes.1 They provide cloud, land, and ocean temperatures; monitor activities
of the sun; and relay emergency locator beacon signals to assist with search and rescue
activities.

NOAA simultaneously operates two primary GOES satellites, GOES-East and GOES-West. As
part of its coverage policy, NOAA also maintains one satellite in on-orbit storage in the event
of a failure of one of the operational satellites (see figure1).

                           Figure 1. Location and Area of Coverage of the GOES Fleet




Source: NOAA, GOES-R program documentation

On September 23, 2012, the GOES-East satellite (GOES-13)2 was placed on standby due to
anomalies in its instruments, causing NOAA to activate the on-orbit spare (GOES-14) to
collect and provide data. NOAA began moving GOES-14 on October 1, 2012, toward the
                                                            
1
  The satellites orbit the equatorial plane of the Earth at speeds matching the Earth’s rotation. The satellites
continually view the continental United States, the Pacific and Atlantic Oceans, Central and South America, and
southern Canada.
2
  When satellites are being developed, they are identified by letters; after they are launched, they are identified by
numbers. For example, GOES-R will be GOES-16 once it is launched.




FINAL REPORT NO. OIG-13-024-A                                                                                            1
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

GOES-East 75 degree longitude position to maintain data collection coverage. On October 18,
2012, movement of GOES-14 was stopped at 89.5 degrees west because GOES-13 was
successfully restored to service.

NOAA, in conjunction with the National Aeronautics and Space Administration (NASA), is
developing the next generation of GOES satellites known as the GOES-R Series of four
satellites (GOES-R, -S, -T and -U). The first satellite in the series, GOES-R, is scheduled for
launch in October 2015.

The overall GOES-R program is managed by NOAA with two integrated NOAA/NASA project
offices—the Ground Project and the Flight Project—as well as integrated supporting offices
such as Program Systems Engineering and Program Contracts. NOAA manages the acquisition
and development efforts for the entire Ground Project—including the facilities; antenna sites;
software and hardware for satellite command and control, as well as generating and distributing
end-user products; and the remote backup unit for backup of mission-critical functions. NASA
manages development and acquisition of the Flight Project, which consists of the spacecraft,3
instruments, launch vehicle, and auxiliary communication payloads.

The GOES-R series will deploy advanced instruments that will provide data used to generate
more timely and accurate weather forecasts (see appendix B for instrument details). The
primary instrument, the advanced baseline imager (ABI), is expected to introduce new GOES
data products and improve on the existing products. NOAA projects the expected series
lifetime benefit from ABI to be $4.6 billion4 due to improved tropical cyclone forecasts, fewer
weather-related flight delays, and improved production and distribution of electricity and
natural gas. Another instrument that will provide life and property benefits is the Geostationary
Lightning Mapper (GLM). GLM is expected to provide early indication of growing, active, and
potentially destructive thunderstorms over land as well as ocean areas, early warning of
lightning ground strikes, and potentially improved tornado warning lead time of up to 21
minutes. It is also expected to provide improved routing of commercial, military, and private
aircraft over limited oceanic regions where observations of thunderstorm intensity are scarce.

To reduce risk, the GOES-R program in 2004 initiated development of its most important and
complex instrument, the ABI, years in advance of the other instruments and spacecraft. The
program has also implemented risk reduction activities to improve the quality of the
instruments and the spacecraft.5 Following the recommendation of an independent review
team,6 the GOES-R program budgeted reserves for addressing risks, reducing the probability of

                                                            
3
  The spacecraft, the platform for GOES-R’s instruments, is designed for 10 years of on-orbit operation preceded
by up to 5 years of on-orbit storage. 

4
  ABI lifetime benefits are noted on the GOES-R public-facing Web site, last updated April 4, 2013. GOES-R. 

Advanced Baseline Imager (ABI) [Online]. www.goes-r.gov/spacesegment/abi.html (accessed April 10, 2013).

5
  For example, the ABI contractor built a prototype model to test the instrument’s design. 

6
  The independent review team was a NOAA-appointed team of senior satellite, ground, and operations 

acquisition experts that assess GOES-R (and other NOAA satellite programs) for the NOAA Program 

Management Council; Goddard Space Flight Center Management Council; and, upon request, the Department of 

Commerce Office of the Secretary. 





FINAL REPORT NO. OIG-13-024-A                                                                                      2
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL

exceeding the life-cycle budget. Predictive models show that GOES-R is in fact likely to stay
within its life-cycle budget of $10.9 billion for four satellites, the ground system, and supporting
operations through 2036. 7 However, the program is facing near-term budget challenges in FY
2013 and FY 2014.

In May 2012, after the mission preliminary design review (MPDR),8 NOAA executives (in
concurrence with NASA and the standing review board9) gave the program approval to
continue on course with its efforts to meet the October 2015 launch readiness date, despite
acknowledging that the confidence level in meeting this deadline is less than 50 percent. It was
determined that this course of action had the highest potential for maintaining GOES
constellation availability.


 




                                                            
7
  In its FY 2012 program budget submission, NOAA added 2 satellites (GOES-T and -U) to the program’s existing
two GOES-R satellites (GOES-R and -S), which increased the program’s life-cycle budget from $7.7 billion to $10.9
billion.
8
  The purpose of the MPDR is to (a) demonstrate project readiness to proceed with the detailed design and (b)
complete the flight and ground system development and mission operations in order to meet mission performance
requirements within the identified cost and schedule constraints.
9
  The standing review board is comprised of experts in both NASA and NOAA systems that are fully independent
of the GOES-R Program Office. Members provide expert technical review of the mission, including the adequacy of
the planning, design, and implementation processes.




FINAL REPORT NO. OIG-13-024-A                                                                                   3
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL


Findings and Recommendations 

Our audit objectives for reviewing the GOES-R acquisition and development effort were to
assess (1) the adequacy of contract management and administration and (2) the effectiveness of
management’s direction, monitoring, and collaboration for development of select components
of the GOES-R program (for further details regarding our objectives, scope and methodology,
see appendix A).

We concluded that NOAA needs to develop a comprehensive plan to mitigate the risk of
potential launch delays, as well as communicate changes to users and other stakeholders that
may be necessary to maintain the first GOES-R satellite’s launch readiness date. Program
systems engineering has been strengthened; however, early in system development, it
contributed to ground system schedule compression and increased costs. To ensure continued
strength, NOAA must periodically report on program systems engineering adequacy, to include
NASA Goddard Space Flight Center (GSFC) and its headquarters’ support, for the crucial
integration and test phase of the program.

We also concluded that NOAA needs to ensure that NASA effectively validates contractor
proposals and any subsequent plans to verify technical designs for readiness, to reduce delays
and cost increases. Further, NOAA must work with NASA to improve its use of financial
incentives in encouraging contractors to limit cost overruns and strive for exemplary
performance. Appendix C summarizes past incentive costs we question as justifiable and the
potential monetary benefits we identified if these incentives are improved. Lastly, NOAA does
not have a policy in place to manage significant delays in finalizing certain cost contract actions,
which may have resulted in increased costs to the program.

     I.	      NOAA Must Keep Stakeholders Continuously Apprised of Approaches to
              Mitigate the Likelihood of a Two-Imager Coverage Gap

       There is growing concern about a potential GOES-R launch delay, increasing the likelihood
       of a GOES two-imager10 data coverage gap that could impact the National Weather
       Service’s ability to issue severe weather alerts. The potential delay is due to both a
       diminishing program schedule reserve and budget challenges that could slow development.
       The GOES-R joint cost and schedule confidence level (JCL) assessment that is used to
       predict the likelihood of a program’s success indicated that GOES-R has only a 48 percent
       chance of an on-time launch.11

       If GOES-R launches on time, the GOES constellation (currently GOES-13, -14, -15) will still
       be at an unacceptable level of risk—only 64 percent probability of having two imagers in
       operation, whereas NOAA’s minimum acceptance level is 80 percent. The JCL assessment

                                                            
10
   An imager is a satellite instrument that measures and maps the Earth and its atmosphere. Imager data are 

converted by computer into pictures. 

11
   NASA programs typically require a 70 percent confidence level to move forward. 





FINAL REPORT NO. OIG-13-024-A                                                                                   4
  DEPARTMENT OF COMMERCE
U.S.                                                                       OFFICE OF INSPECTOR GENERAL

    projects that GOES-R is more likely to launch in February 2016, increasing the risk of a
    two-imager gap by 7 percent, leaving only a 57 percent chance of having two imagers in
    operation. However, even if GOES-R and GOES-S launch as planned, there will not be an
    on-orbit backup available while these satellites go through post-launch testing (based on
    GOES-13 and GOES-15 operational design lives; see figure 2).

    Satellite instruments are susceptible to data degradation and complete failures. For example,
    on September 23, 2012, NOAA had to place the GOES-13 satellite on standby due to
    problems with its imager and sounder. NOAA activated the GOES-14 on-orbit spare
    satellite to replace GOES-13, but the reliability of hurricane forecasts was potentially
    subject to degradation because some GOES-14 data would not have been available for use
    until a 30-day test period was completed. GOES-13 service was restored on October 18,
    2012, after more than 3 weeks of being in standby mode.

    Because significant uncertainties have emerged since FY 2011 with the GOES-R
    development schedule, annual funding, and operational capability, NOAA needs to ensure
    that stakeholders in Congress, the Office of Management and Budget, and the Department
    stay informed of alternative approaches needed during development activities to mitigate
    the likelihood of a two-imager data coverage gap.

                                 Figure 2. Backup Satellite Policy




        Source: OIG, adapted from NOAA geostationary satellite schedules




FINAL REPORT NO. OIG-13-024-A                                                                       5
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL

       A.	 Schedule Slips and Potential Reduction in Testing Activities Raise Concerns About GOES-R
           Readiness to Launch

              In February 2012, at the MPDR, management identified the core ground system as the
              development effort to closely monitor for the next 3 years because it was most likely to
              threaten the launch readiness date. By June 2012, delays fabricating the GOES-R
              spacecraft caused schedule reserve for the entire program to significantly decrease to
              below the recommended level for meeting the launch readiness date.12 The spacecraft
              replaced the core ground system on the program’s critical path. By August 2012, at the
              initial MCDR,13 the program office reported that the spacecraft was 3 months behind
              schedule, the ABI was 6 months behind schedule, and the GLM was 4 months behind
              schedule.

              At the initial MCDR, program management had not presented its detailed plan for
              system integration and test and the standing review board was concerned about fitting
              the plan into a constrained schedule. If system integration and test are reduced due to
              insufficient schedule, NOAA needs to inform stakeholders of any cutbacks to test
              activities needed to meet the launch readiness date that could result in changes to
              operational performance. Testing on the ground is crucial to minimizing problems in
              space, where corrective actions are limited and satellite performance may degrade or
              completely fail.

       B.	 Cost Increases and Budget Shortfalls May Delay GOES-R Development and Launch

              GOES-R funding stability is now the top risk in the program’s risk charts.14 The program
              needs substantial annual budget increases of $186 million in FY 2013 and an additional
              $150 million in FY 2014 (see table 1, below). Available funds are scarce due to significant
              contract cost increases of over $1 billion15 and budget adjustments in previous years
              amounting to $264 million;16 however, the program is not expected to exceed its life-
              cycle budget of $10.9 billion. According to the standing review board and NOAA, if the
                                                            
12
   At the end of 2011, the program schedule reserve was 61 days above the NASA Goddard Space Flight Center
minimum requirement at that stage of system development. Six months later (in June 2012), schedule reserve had
dropped by 66 days to 5 days below the recommend level. The Goddard Space Flight Center recommends
allocating 1 month of funded schedule reserve per year up to the start of integration and test of the spacecraft and
instruments.
13
   The program office held the MCDR prematurely, before a detailed schedule for the spacecraft’s integration and
test was available. As a result, the standing review board could not complete its evaluation of the program’s
schedule and cost, necessitating a follow-up review (MCDR part II) held November 8–9, 2012.
14
   NOAA is currently assessing impacts to the GOES-R schedule due to sequestration and rescission of funds in
the recently enacted FY 2013 appropriations law. 

15
   Contract cost increases include the sum of executed modifications and estimated change proposals, due to both 

contractor cost overruns and government directed contract changes. Unexercised options are not included in this 

calculation.

16
   Budget reductions in FY 2009, FY 2010, and FY 2011 amount to $106 million and the re-phasing of program 

funding in FY 2012 due to delays in spacecraft and ground contract awards totaled $158 million for an overall 

shortfall of $264 million.





FINAL REPORT NO. OIG-13-024-A                                                                                     6
  DEPARTMENT OF COMMERCE
U.S.                                                                                                   OFFICE OF INSPECTOR GENERAL

              GOES-R annual budget plan is not sustained, then GOES-R will not be ready to launch
              and delays will require keeping the contractor labor force working on the project
              longer. At the current rate of $71 million per month, a protracted contract labor force
              will further increase life-cycle costs.

                                  Table 1. GOES-R Program Budget Plan (in $ Millions)
                              Prior            FY           FY        FY     FY     FY     FY     FY       To
                                                                                                                    Total
                              Years           2010         2011      2012   2013   2014   2015   2016    Complete
               Total           1,489           642             662   616    802    951    845    782       4,071    10,860
            Source: OIG, adapted from GOES-R program documentation

       C. Scope Reductions and Delays Are Diminishing GOES-R Operational Capabilities

              Due to development delays, the GLM instrument may not be on the GOES-R satellite
              when it launches. NOAA research has demonstrated that the GLM could potentially
              improve tornado warning lead times from the current average of 13 minutes up to 21
              minutes. However, NOAA does not plan to delay the GOES-R launch if the GLM is not
              ready in time because the GLM does not provide the key environmental data products
              for the mission. Realizing the benefits of the GLM would have to wait until the launch of
              the next satellite, GOES-S. The program is studying modifications to the spacecraft
              necessary if the GLM is not on board.

              GOES-R has already had significant reduction in capabilities (or scope). In 2006, NOAA
              removed from the program the hyperspectral sounder instrument,17 expected to
              provide data for enhanced weather forecasts and severe weather warnings, due to the
              cost risk of readying a new technology for operational use in a geostationary orbit.18
              Additionally, in 2011, GOES-R management decided to terminate two core ground
              system contract options it had initiated in 2010—the option to complete the full set of
              environmental data products planned for the GOES-R series (only half of the planned
              products will be developed19) and the option to improve the speed of processing of
              incoming instrument data. NOAA is deferring development of the full set of data
              products to a later date. The agency terminated these options, valued at $51 million,
              due to budget constraints. NOAA must clearly communicate to stakeholders any
              additional changes to scope necessary to keep the launch schedule on track.




                                                            
17
   NOAA planned on the hyperspectral sounder instrument providing atmospheric moisture and temperature data
to support forecasts and warnings of high-impact weather.

18
   A sounder is not flying on the GOES-R series; instead data from the ABI will be used to produce data products 

similar to those from GOES-13, -14, and -15. 

19
   The partial set of products that GOES-R will generate is a significant improvement over the products generated 

by the current orbiting GOES satellites.





FINAL REPORT NO. OIG-13-024-A                                                                                                   7
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL

       D.	 A Comprehensive Set of Alternative Approaches for Mitigating a Launch Delay Has Not Been
           Developed

              The GOES-R program is entering the crucial stage of system development: completing
              fabrication of instruments and spacecraft, the ground system releases, and integration
              and tests in preparation for launch. There are numerous factors—a pessimistic JCL
              assessment, compressed schedule, and funding shortages—indicating that the October
              2015 launch readiness date is threatened. Nonetheless, the NOAA and NASA
              management councils, with concurrence of the standing review board, have decided that
              the best course of action is for the program to proceed as planned.

              Stakeholders need to understand whether the program is able to keep pace with its
              challenging schedule. However, program status information is not always kept up-to-
              date or may not reveal issues with the program.20 Further, if the schedule remains
              threatened, stakeholders need to know what approaches are available to keep the
              program on track to meet the launch readiness date. For example, the standing review
              board recommended that GOES-R program management consider—as one approach to
              alleviate schedule pressure—consulting the GOES-R user community about relaxing
              operational requirements, particularly for the GLM that is significantly behind schedule.21
              Another approach to consider would be redirecting funds to more important activities,
              such as moving funds from core ground system development to the Flight Project, since
              some functions of the core ground system are not necessary until after launch.22

              Although GOES-R program management has identified approaches for resolving
              potential launch readiness date slips as problems arise, we believe NOAA should ensure
              that it develops a comprehensive set of tradeoff approaches—which identify impacts to
              cost, schedule, and satellite performance, along with a timetable to implement a change
              in course—and vets the approaches with users and stakeholders. This comprehensive
              set of approaches should identify trigger points for alternative action in the event that
              critical problems occur during fabrication and integration and test. As a precaution,
              NOAA should be prepared to implement a plan for obtaining alternative sources of data
              in the event of a GOES coverage gap.




                                                            
20
   Examples of outdated status and other information that does not reveal the full breadth of program issues
include (1) the GOES program did not update core ground system schedule variances for the Office of
Management and Budget information technology dashboard; and (2) the earned value management variance reports
reflect only contractor cost overruns, not government-directed cost growth.
21
   The GLM contractor is working to lower the error rate in detection of lightning events (i.e., decrease detection
of false positives), but the user community may be satisfied with the current error rates since the GLM is a new
GOES capability that could still provide valuable data to increase the warning time for tornados.
22
   Development of derived data product generation and distribution functions could be deferred until after launch.




FINAL REPORT NO. OIG-13-024-A                                                                                     8
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL


II.	          NOAA Needs to Ensure That Systems Engineering Remains Engaged in
              Coordinating the Flight and Ground Projects

       NOAA accepted a core ground system development approach at contract award that was
       not flexible. From contract award in May 2009 until January 2011, GOES-R program
       management and its systems engineering organization had difficulty coordinating delivery of
       flight information necessary for core ground system development. The delay compressed
       the core ground system development schedule, and the plan to resolve the problem
       substantially increased core ground system costs. This delay was exacerbated by a lack of
       program systems engineering leadership. Since January 2011, the systems engineering
       organization has become more successful in facilitating coordination of the two projects.
       However, the GOES-R program is entering the final phases of development—completing
       satellite component fabrication, then integrating and testing the system—that are periods of
       peak spending and when schedule delays are most costly. Therefore, the GOES-R systems
       engineering organization needs to remain fully engaged.

       A.	 NOAA Accepted a Core Ground System Development Approach That Was Not Flexible,
           Resulting in Increased Costs

              The GOES-R core ground system development is performed under a contract, awarded
              May 27, 2009, for $736 million23 over a10-year period. The ground system will control
              the GOES-R series satellites and generate
              and distribute environmental data products                      The Re-Plan
              to the National Weather Service and other      More flexible, but also more complicated
              users. This large-scale and complex system     to manage because of an increase in
              entails demanding processing, availability,    parallel development and integration and
              and security requirements: for example,        test activities, the re-plan allows
              the core ground system must process 1.37       development of partial capabilities
              terabytes of data daily while remaining        (increments). The contractor can develop
              available all but two hours per year.          as much of a capability as possible with
                                                                available flight information and then shift
              The contractor’s development plan that            staff to developing other capabilities while
              NOAA accepted could not accommodate               waiting for the remaining information. An
              changes in information dependencies               added extra step combines and tests
                                                                capabilities into “capability-based builds,”
              between the Flight Project and core ground
                                                                which are then integrated into releases for
              system. The contractor’s “waterfall”              end-to-end flight and ground tests. This
              system development approach,24 which              approach aims to utilize contractor time
              assumed that Flight Project deliverables          efficiently and reduce rework.
              would be available in time to build the
              ground system, was not flexible enough to accommodate late delivery of flight
              information. However, due to NOAA’s plan to award the contracts only 2 months apart
                                                            
23
   The contract includes award fees and two options valued at $51 million. 

24
   The fundamental problem with the contractor’s waterfall approach was that the ground system was divided in 

large development blocks; each required a substantial amount of flight information.





FINAL REPORT NO. OIG-13-024-A                                                                                     9
  DEPARTMENT OF COMMERCE
U.S.                                                                    OFFICE OF INSPECTOR GENERAL

        (and a subsequent protest that delayed the award of the spacecraft contract by 8
        months), not enough time was left for the spacecraft contractor to plan or develop
        deliverables before the ground contractor needed them.

        To address the information dependency problem, the ground system contractor
        submitted a formal engineering change proposal (ECP) in October 2011 to “re-plan” the
        development effort. The program incorporated the re-plan into the ground system
        contract as part of the seventh ECP. In total, the proposal added $170 million to the
        contract cost. The re-plan amounted to $89 million of the total. Overall, the core
        ground system contract cost, including ECPs 1–7, has grown by $245 million to $981
        million.

    B.	 Prolonged Time to Re-plan the Core Ground System Introduced New Schedule Risks

        The prolonged wait to resolve flight-to-ground dependencies compressed a 3-and-a-half-
        year development schedule by 7 months and did not fully resolve the information
        dependency problem. Also, according to the ground contractor, the re-plan has
        introduced new risks, including
             	 the need for increased parallel development and integration and testing, which is
                more complicated to manage, and
             	 the contractor may not have sufficient staff to perform the increased testing
                planned for this approach.

        The GOES-R program office, including program systems engineering, tried to coordinate
        flight-to-ground dependencies starting in October 2009, after the spacecraft and ground
        system contract awards, by arranging technical interchange meetings between the Flight
        Project and ground system contractors.

        However, by January 2011, a year and a half after awarding the ground system contract,
        the flight-to-ground dependencies had still not been reconciled. The GOES-R program
        office and the contractor concluded that following the original development plan would
        result in delaying the launch of GOES-R by 15 months (from October 2015 to January
        2017) and decided that the best course of action was to re-plan the development
        approach.

        The time it took to recognize the need for a re-plan and the time needed to develop the
        re-plan delayed the preliminary and critical milestone reviews. As a result, this delay
        reduced the time available for ground system development.

        Although the re-plan provided flexibility to adjust the ground system development
        schedule to variability in the Flight Project’s delivery schedule, not all flight information
        delivery dates were mapped to ground need dates. As a means to better track
        interdependencies, program systems engineering developed the Giver–Receiver Inter-
        Segment Database to map out Flight and Ground Project dependencies and began a
        weekly update process to handle newly discovered dependencies and schedule changes.
        However, the compressed schedule and the increased complexity of managing the re-


FINAL REPORT NO. OIG-13-024-A                                                                       10
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL

         plan have increased the risk that the ground system will not be ready in time to meet
         the October 2015 launch readiness date.

    C. Lack of Program Systems Engineering Leadership Prolonged the Coordination Problem

         The prolonged wait to coordinate flight-to-ground information dependencies was
         primarily due to inadequate program systems engineering and management’s lack of
         recognition of this inadequacy. This delay has increased the risks of GOES-R
         performance, budget, and launch readiness issues.

         According to the GOES-R Management Control Plan and the Systems Engineering
         Management Plan, the program systems engineering organization is responsible for
         ensuring the integration of Flight and Ground Projects. It is also responsible for
         maintaining a system-level perspective of both projects by facilitating coordination and
         communication between projects and resolving project conflicts.

         Initially, the GOES-R program systems engineering organization only reviewed Flight and
         Ground Project deliverables rather than lead project integration. The NOAA
         Independent Review Team, at a key decision point review in July 2010, recognized that
         the program systems engineering organization lacked leadership and support for the
         Ground and Flight projects. It also noted that GOES-R did not receive adequate systems
         engineering support from NASA GSFC and its headquarters—which, according to the
         GOES-R Management Control Plan, should provide systems engineering expertise until
         NOAA developed the expertise in-house. In addition to the lead program systems
         engineer, GSFC was to provide oversight through its Center Management Council and
         the Code 400 Director of Flight Project Directorate, both of which the GOES-R
         program reports to monthly.

         In January 2011, after it was clear that the contractor would have to implement a re-
         plan to resolve the Flight and Ground Project misalignment, a newly-placed lead
         program systems engineer exercised more leadership in integrating Flight and Ground
         projects. Subsequently, the lead program systems engineer initiated development of the
         Giver–Receiver Inter-Segment Database and instituted weekly database updates. With
         the re-plan’s compressed ground system schedule, coupled with modifications to the
         Flight Project development, NOAA needs to monitor program systems engineering
         integration and NASA support activities to reduce risks of performance degradation,
         cost overruns, and launch delays.

 III.	   NOAA Needs to Improve Flight Project Technical Oversight of NASA’s
         Contractors and Award Fee Measures to Limit Further Cost Overruns

    NOAA is responsible for the success of the program and, therefore, the performance of the
    flight contracts, even though NASA is the primary acquisition agent and manager on the
    Flight Project. We found that NASA, at times, did not proactively address contractors’
    actions that ultimately contributed to cost overruns. Specifically, NASA accepted contractor
    bids that were significantly less than the program office estimates. Further, it did not


FINAL REPORT NO. OIG-13-024-A                                                                       11
  DEPARTMENT OF COMMERCE
U.S.                                                                                                       OFFICE OF INSPECTOR GENERAL

       adequately evaluate contractor technical designs for the GLM. Also, its administration of
       award fees did not adequately incentivize contractors for exemplary performance. Improved
       contract oversight by NOAA over NASA contracts would help to minimize the risk of such
       problems occurring.

       GOES-R costs increased more than $685 million for the Flight Project’s most beneficial
       instruments (ABI, GLM) and the spacecraft. Cost overruns—which occur when contractors’
       incurred and planned costs exceed the expected costs of their contracts—represent the
       largest category ($361 million) of these increased costs.25 The ABI, GLM, and the spacecraft
       are currently overrunning their contracts by $264 million, $86 million and $11 million
       respectively. See figure 3, below, for a depiction of cost for the spacecraft, ABI, and GLM to
       date.

                      Figure 3. Costs of Spacecraft, ABI, and GLM, as of December 2012
                                                                                     $897


                                  a
             Spacecraft                                                       $779                                 $107


                                                                             $746
                                                                                                                        $11
           Advanced

            Baseline

                                                          $329                 $153                $264
             Imager

              (ABI) b
 
                                                   $247 
      Geostationary
        Lightning
                                           $97        $64 $86
         Mapper
                c 
          (GLM)

                                      $0         $100          $200   $300     $400       $500     $600   $700   $800     $900   $1000
                                                                                    Dollars (millions)
                                         Contract Priced                      Cost Growthe                Cost Overrunf 
      Source: Adapted from GOES-R program and NASA contract documentation
      a
        Includes the spacecraft for the GOES-R and -S flight models; b includes instruments for GOES-R and -S
      flight models; c includes instruments for GOES-R, -S, and -T flight models; d the contract price (base cost +
      award fee) at award including exercised contract options; e costs negotiated and added to the contract for
      decisions made by program management (e.g., requirements changes, additional testing, and schedule
      adjustments); f contractor incurred and planned costs that exceed the expected costs of their negotiated
      contracts. 

                                                            
25
  NASA negotiated the other costs and added them to the contract for decisions made by program management
(e.g., requirements changes, additional testing, and schedule adjustments).




FINAL REPORT NO. OIG-13-024-A                                                                                                            12
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

       The overruns were the result of contractors underestimating the effort and technical
       complexity of the instruments, immature designs, and difficulty managing subcontractors’
       cost increases and schedule slips. While the spacecraft contract overruns, compared to ABI
       and GLM, have been minimal as of November 2012, the program recently disclosed that it
       expects spacecraft overruns to reach $140 million.

       A. Contract Award Prices Were Significantly Less Than Program Estimates

              The program accepted contractor bids that were significantly less than its own
              estimates. Altogether the ABI, GLM, and spacecraft contract awards totaled $1.55
              billion, or 28 percent less, than the program estimated (see table 2, below).

     Table 2. Comparison of Program Cost Estimates Versus Contract Award Prices

                                                                                                   Difference
                                                               GOES-R Program Office   Winning
                                                                                                   Between
      Flight Project Contracts                                   Estimate (POE),        Bid, in
                                                                                                   Estimate
                                                                    in Millionsa       Millionsb
                                                                                                    and Bid
      Advanced Baseline Imager (ABI)                                     $462             $359         21%
      Geostationary Lightning Mapper (GLM)                               $147              $97         34%
      GOES-R Spacecraft                                                $1,538           $1,094         29%
                      Totals                                           $2,147           $1,550        28%
     Source: Adapted from GOES-R program and NASA contract data 

     a
       Includes estimates for GOES-R through GOES-U flight models; b includes bids for GOES-R through GOES-U 

     flight models.



              The program office developed estimates before accepting contractor bids during the
              program’s formulation phase.26 Program experts (e.g., engineers, scientists) used trade
              studies, designs, and cost estimates, along with labor rates, to build the program office’s
              estimates.

              Flight Project officials acknowledged that they were aware the bids were too low but
              explained that getting better cost realism from contractors is arduous and risky.
              Typically, NASA only conducts a single round of discussions wherein they are permitted,
              though limited by counsel, to inform bidders that specific tasks are unrealistic. They
              explained that negotiation over cost realism is time-consuming, expensive, and
              potentially leads to protests from other vendors that provided higher bids. In an effort
              to compensate for awarding contracts that were underbid, the program stated that it
              had sufficient budget reserves to cover anticipated cost increases within the program’s
              life cycle cost of $10.9 billion. However, when contract prices do not reflect reasonable
              estimated costs, the costs and status of the effort become skewed as contractors
                                                            
26
  During NASA’s formulation phase, the program manager initiates and conducts the planning and analysis
necessary to develop a program plan that establishes a cost-effective program demonstrably capable of meeting
agency and mission directorate goals and objectives.




FINAL REPORT NO. OIG-13-024-A                                                                                    13
  DEPARTMENT OF COMMERCE
U.S.                                                                         OFFICE OF INSPECTOR GENERAL

              overrun their bids. Indeed, as the projects proceeded, significant cost increases and
              budget reductions eroded the reserves. The program reported, in November 2012, that
              program reserves for FYs 2012 and 2013 are below NASA recommended levels.

       B.	 Technical Evaluation of GLM Design Was Inadequate

              The initial GLM contractor’s project team was more experienced in building
              instruments for research missions rather than operational missions like GOES-R. Thus,
              the contractor underestimated the manpower, time, and materials needed to develop an
              operational instrument. For example, as part of its best and final offer, the GLM
              contractor stated its intention to change its baseline design for an important sub-
              component (real time event processors) to a design that had a lower technology
              readiness level. 27 The program, 1 year later, identified that the design would not have
              been sufficiently mature by the next key technical milestone and thus rejected the
              proposal. This led to a re-design that was more costly than the contractor’s initial
              estimate. Flight Project officials estimate that costs increased by approximately $10
              million. Had NASA proactively engaged its rigorous technical review process earlier—at
              contract review and award—perhaps the time lapse, re-design, and cost overruns that
              occurred later in development could have been mitigated.

              Other technical issues also arose related to underestimation of the effort. For instance,

                      	 the contractor’s original design for a fully redundant backup solution for the
                         electronics systems that processes collected data did not meet requirements and
                         had to be redesigned, and

                      	 the contractor’s plans for reducing electromagnetic interference on the
                         instrument did not meet operational standards and had to be redesigned.

              Had NASA performed sufficient upfront validation of plans and designs including parts,
              other hardware, and supporting software as part of its evaluation of contractor
              proposals, these issues may have been identified sooner and the associated overruns
              reduced or eliminated.

       C. Award Fees Did Not Effectively Incentivize Exemplary Performance or Sufficient Cost Control

              The award-fee structure for the ABI, GLM, and spacecraft contracts do not incentivize
              the contractors toward exemplary performance. In addition, the program provided the
              ABI contractor more award funds than we believe is justifiable based on the
              contractor’s performance.

              With cost-plus-award-fee contracts such as those awarded for the GOES-R Flight
              Project, award fees are
                                                            
27
  Per NASA standard NPR 7120.8 sections 4.6.1-3, technology readiness levels (TRLs) are measurements used to
assess the maturity of technology.




FINAL REPORT NO. OIG-13-024-A                                                                              14
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

                      	 the government’s primary tool to incentivize contractors to meet and possibly
                         exceed performance goals,
                      	 awarded based on the government’s evaluation of the contractors performance
                         (specifically technical, management, and cost performance for GOES-R), and
                      	 provided to the contractor in excess of the costs of materials and work
                         performed.
              The award-fee structure for ABI, GLM, and the spacecraft do not incentivize
              exemplary performance. The award-fee structures for the ABI, GLM, and spacecraft
              contracts are problematic in two ways: (1) the scale for assigning award fee provides
              too much fee for average performance and (2) there are no criteria or metrics to
              determine what constitutes a significant versus an insignificant overrun. Both of these
              issues were also previously noted in our May 2012 report28 which addressed the
              Ground Project contracts administered by NOAA.

                      1.	 Award fee ranges—The award fee structures for the ABI, GLM, and spacecraft
                          contracts use a numerical rating system with adjectival ratings “Excellent,” “Very
                          Good,” “Good,” “Satisfactory,” and “Poor/Unsatisfactory” to determine the
                          percentage of award fee paid to the contractors for each performance period
                          (see appendix D). The scale allows the contractor to receive significant award
                          fees (up to 70 percent) for “Satisfactory” performance. Contractors receiving
                          the lowest score in the “Satisfactory” range (61) are entitled to receive an award
                          fee. This spread allows a contractor performing at the lowest level of acceptable
                          performance to receive over half of the award fee (61percent). For performance
                          in the “Poor/Unsatisfactory” range (60–below), no award is provided. The
                          numerical rating system should be adjusted such that contractors receive smaller
                          percentages of award fee for non-exemplary performance.29 For example, a
                          satisfactory rating should receive a score of 50 percent as specified by the 2011
                          NASA Federal Acquisition Regulation (FAR) Supplement,30 which provides a
                          more appropriate award fee for satisfactory performance.

                      2.	 Overrun materiality—Within the program’s performance evaluation criteria
                          for award fees, contractors can receive fees even if they have overruns;
                          however, the criteria’s language is subjective. Specifically, the criteria allow
                          granting award fees in the case of overruns if the overruns are
                          “significant.” They do not, however, define what constitutes significant
                          versus insignificant. Further, they allow the government to increase the
                                                            
28
   U.S. Department of Commerce Office of Inspector General, May 18, 2012. NOAA’s Cost-Plus-Award-Fee and
Award-Term Processes Need to Support Fees and Extensions, OIG-12-027-A. Washington, DC: DOC OIG, 6.
29
   Although the ABI, GLM, and spacecraft contract award fee ranges were in compliance with NASA guidance
when the contracts were awarded (2009 and earlier), the guidance was altered in 2011 after Federal Acquisition
Regulations specified ranges that were lower. It is in the program’s best interest to use the new ranges because
they are more likely to incentivize contractors towards excellent performance. According to the contracts, the fee
determining official has the option to alter the plans and methods for determining award fee.
30
   NASA FAR Supplement, 48 C.F.R. § 1816.405-275(b).




FINAL REPORT NO. OIG-13-024-A                                                                                   15
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL

                             award fee based on consideration of the contractor’s efforts to control or
                             mitigate the overrun. OMB guidance requires tying awards to
                             demonstrated results, as opposed to effort, in meeting or exceeding
                             specified performance standards.31 Further, as stated in our May 2012
                             audit report on NOAA cost-plus-award-fee contracts, “without clearly
                             defined metrics and outcomes, performance ratings are subject to
                             interpretation and can result in unsupported contractor performance
                             evaluations and awards.”32

              NASA, by revising the performance evaluation plans for these contracts, will more
              effectively incentivize the contractors to strive for exemplary performance. We
              therefore expect NASA, through NOAA direction, to better use the funds remaining in
              the contract award fee pools (a combined total of approximately $106 million funds put
              to better use for ABI, GLM, and the spacecraft). The contractors are still eligible to earn
              these funds (through 2016 for the majority of the funds) based on their performance. As
              a result, these changes may not lead to immediate cost savings. However, more effective
              award fee administration is likely to improve contractor technical, management, and
              cost performance which may result in lower contract costs in the future.

              Fees awarded to the ABI contractor were not commensurate with contractor
              performance. Despite the ABI contractor’s management problems and cost overruns,
              we believe NASA awarded more fees than justifiable.

              Although the ABI contractor’s technical performance has typically been “Very Good”
              (see appendix D for performance rating scale), it has struggled with both cost control
              and subcontractor management. The $264 million ABI overruns are primarily the result
              of difficulties with managing subcontractor cost increases and schedule slips, as well as
              underestimating the amount of work and technical complexity of the instrument.

              In addition to identifying these issues, NASA stated in some of its award fee reports that
              the contractor applied excessive manpower to the project, did not provide correct
              status on select tasks, and was not responsive to some NASA requests. For example,
              the contractor proceeded with its selected approach for vibration testing on ABI
              components despite NASA requests to use a different approach that would not result in
              schedule slippage and increased costs. NASA noted that, because the contractor had
              experienced significant issues on another contract, it was taking an overly conservative
              risk posture with ABI.

              NASA evaluates performance and pays award fee to the ABI contractor for every six
              month period of contract performance. We evaluated 15 of these award fee periods
              and found that the fee determining official awarded the contractor a higher amount than
                                                            
31
   Office of Management and Budget, Office of Federal Procurement Policy, December 4, 2007. “Appropriate Use
of Incentive Contracts,” Memorandum. Washington, DC: OMB.
32
   DOC OIG, May 18, 2012. NOAA’s Cost-Plus-Award-Fee and Award-Term Processes Need to Support Fees and
Extensions, OIG-12-027-A. Washington, DC: DOC OIG, 6.




FINAL REPORT NO. OIG-13-024-A                                                                              16
  DEPARTMENT OF COMMERCE
U.S.                                                                                            OFFICE OF INSPECTOR GENERAL

              justifiable by evaluation criteria in 4 periods. Because the documentation we reviewed
              did not demonstrate that these award fees were commensurate with actual contractor
              performance, we identified $8.8 million paid across the four periods as questioned
              costs.33

              We recognize the challenge the program has with striking the right balance between
              maintaining constructive contractor relationships and assessment of performance
              through award fees. However, we conclude that correcting the award fee structures
              and ensuring award fees are commensurate with performance will address this
              challenge.

 IV.	         NOAA Needs to Improve Management of Undefinitized Contract Actions
              (UCAs)

              NOAA has delayed finalizing negotiations for almost a year to two years on its six
              significant changes to the core ground system contract. Because of these delays, the
              government lost the opportunity to negotiate costs on an estimated $79.6 million (see
              table 3, below).

                               Table 3. GOES-R Core Ground System Contract Action 

                                               Definitization Delays 

                                                                                  Estimated Costs
                                                               Total Days to
                                           ECPs                                   Incurred Before
                                                                Definitize
                                                                               Definitization (Millions)
                                             1                     448                   $ 3.3
                                             2                     342                   $ 0.3
                                             4                     695                   $10.3
                                             5                     492                   $ 0.9
                                             6                     769                   $ 3.5
                                             7                     467a                  $61.3
                                           Total                                         $79.6
                                    Source: Adapted from NOAA contract documentation

                                    a
                                      As of December 12, 2012. 


       The program issued seven engineering change proposals (ECPs) after the award of the core
       ground system contract in May 2009. Six of these ECPs, totaling an estimated $245 million,
       included changes to the contract that required negotiating additional costs. Because NOAA




                                                            
33
  An undetermined portion of the $8.8 million paid across these four periods was provided to the contractor
without adequate justification. Thus, rather than declaring a specific dollar amount as inappropriate spending, we
instead question the appropriateness of the amount paid for the four periods.




FINAL REPORT NO. OIG-13-024-A                                                                                           17
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

       needed the work to begin before it and the contractor could fully negotiate cost, NOAA
       chose to issue these ECPs as UCAs.34

       FAR specifies that agencies should definitize UCAs “in the shortest practicable time.”35 In
       addition, the Department of Defense generally requires their agencies to definitize all UCAs
       in 180 days. Further, Government Accountability Office (GAO) reports36 also stress the
       importance of definitizing UCAs in a timely manner. We found that NOAA experienced
       delays in definitizing its UCAs because
                     it lacks policies for governing their time limits37 and cost incurred tracking,
                     the scope was too large, and
                     cost limits were set too high.
       While NOAA policy does not specify any time limit for definitizing UCAs, NOAA should
       make every effort to reduce the time that contracts remain undefinitized, given the risks of
       increased cost the longer they are delayed.

       A. Lack of UCA Time Limit And Cost Incurred Tracking Policy Led to Definitization Delays

              NOAA does not have a policy for how expeditiously UCAs should be definitized. On
              average, the core ground system contractor prepared the estimates and proposals for
              the UCAs in 86 days. However, it took NOAA an average of 348 days to evaluate the
              contractor’s proposal and identify its negotiation targets. NOAA does not have a
              mechanism to determine the amount of cost due to such delay. Its Acquisition and
              Grants Office (AGO) receives weekly reports that include the status of UCAs but not
              how much of the UCA costs have already been incurred. Further, the program office
              neglects to identify these costs until right before they are definitized. Thus, the
              significance of these delays is not communicated and their impact is not understood.




                                                            
34
   An undefinitized contract action (UCA) is a federally-regulated contract instrument that allows the government

to authorize contractors to begin work immediately before contract terms and conditions are completely 

negotiated. Once both parties can evaluate and negotiate the additional work and cost, the contract action is 

“definitized”—the contractor and the government agree upon the total work and its estimated cost.

35
   FAR 43.204(b)(1).

36
   U.S. General Accountability Office, September 2006. Iraq Contract Costs: DOD Consideration of Defense Contract 

Audit Agency’s Findings, GAO-06-1132. Washington, DC: GAO, 8.

U.S. GAO, June 2007. Defense Contracting: Use of Undefinitized Contraction Actions Understated and Definitization Time
Frames Often Not Met, GAO-07-559. Washington, DC: GAO, 4–6.
U.S. GAO, January 2010. Defense Contracting: DOD Has Enhanced Insight into Undefinitized Contract Action Use, but
Management at Local Commands Needs Improvement, GAO-10-299. Washington, DC: GAO, 17–18.

37
   Although NOAA Acquisition Handbook 16.3(d) specifies a time limit for one type of UCA (letter contract), it does 

not do so for other UCAs, such as the ECPs issued for the core ground system contract. 





FINAL REPORT NO. OIG-13-024-A                                                                                       18
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL

       B.	 The Large Scope of UCAs Resulted in Delays

              Each UCA includes many configuration change requests (CCRs),38 which include both
              major and minor changes to the contract. NOAA has grouped 68 CCRs with cost
              impacts—all of which, regardless of size, must be evaluated and negotiated—into only
              six UCAs. NOAA took this approach because it had limited acquisition staff, looking to
              reduce the effort needed to definitize CCRs. Despite NOAA’s strategy, the effort
              needed to definitize CCRs increased. In contrast, NASA contracting officers minimized
              the need for UCAs by processing changes individually or in small groups on Flight
              Project contracts; when UCAs were necessary, NASA definitized them quickly.

       C.	 High UCA Cost Limits Create Disincentive for Timely Definitization

              NOAA set the government’s limit of liability prior to definitizing UCAs to 50 percent of
              the contractor’s estimated cost for all except the seventh. Because these UCAs cover
              multiple years of work, the contractor could perform work on an UCA for a year or
              more before reaching 50 percent of the estimated costs. Spending on the UCAs did not
              reach or exceed the 50 percent limit. However, we believe this approach neither
              provides incentive for the contractor nor motivates NOAA to quickly definitize because
              the government has already obligated money for the work to be performed.
              Fortunately, the program reduced the risk of this approach by significantly reducing the
              government’s limit of liability for the seventh UCA and shortening the duration for
              performing authorized work.

Recommendations

To mitigate GOES two-imager coverage gap threats, we recommend that the NOAA Deputy
Under Secretary for Operations ensure that NOAA

       1.	 Develops a comprehensive set of tradeoff approaches (with impacts and implementation
           timetable) to mitigate launch delays and communicates approaches to stakeholders and
           users.

       2.	 Keeps stakeholders and users informed of any tradeoffs that have to be made to meet
           the launch readiness date.

To maintain robust systems engineering for the GOES-R program, we recommend that the
NOAA Deputy Under Secretary for Operations

       3.	 Directs NESDIS to report periodically to the NOAA Program Management Council on
           the adequacy of program systems engineering integration and NASA GSFC and
           headquarters systems engineering support.

                                                            
38
  A configuration change request is a documented request to issue, change, revise, or delete a controlled
requirement, function, or item.




FINAL REPORT NO. OIG-13-024-A                                                                               19
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL

To limit cost overruns and improper award fees for GOES-R Flight Project contracts, we
recommend that the NOAA Assistant Administrator for Satellite and Information Services
ensure that NASA

    4.	 Effectively validates contractors’ proposals and any subsequent plans, to verify that
        technical designs meet technology readiness requirements per NASA standards.

    5.	 Modifies ABI, GLM, and spacecraft contract award-fee structures to reduce award fee
        percentages in accordance with the current NASA FAR Supplement, as well as clearly
        articulates how scores should be adjusted based on the magnitude of cost overruns.

    6.	 Adjusts future award fees for the ABI to be more commensurate with contractor
        performance, to incentivize the contractor to control costs.

To improve contract administration and management, we recommend that the NOAA Deputy
Under Secretary for Operations

    7.	 Directs the development of a policy for managing undefinitized contract actions and
        includes Federal Acquisition Regulation guidance on definitizing change orders in the
        shortest practicable time.




 




FINAL REPORT NO. OIG-13-024-A                                                                   20
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and OIG
Comments
In responding to our draft report, NOAA concurred with five of our seven recommendations.
It also included suggested factual and technical changes to our findings and editorial
comments. See appendix E for NOAA’s complete response.

We address NOAA’s responses to all of our recommendations and significant issues regarding
the basis of our findings. We also address NOAA’s recent decisions to restrict OIG access to
critical meetings where major program issues are discussed.

We held several discussions with the GOES-R program management and staff before and after
issuing the draft report in order to obtain feedback about all findings and recommendations.
However, the GOES-R program focused these discussions only on the four award fees periods
for the ABI contract that we identified in finding III. During these discussions, we reviewed the
award fee periods in question, the issues that led to our finding, and offered to discuss the
finding in more detail. In all of these discussions, the only information GOES-R managers and
staff provided to substantiate the award fees paid was undocumented “verbal discussions” that
occurred during the fee determination process which are not sufficient to justify award fees.

While GOES-R managers and staff have agreed that, in the future, “verbal discussions” should
be documented, they disagree with our recommendation regarding award fees. If NOAA does
not implement OIG’s recommendation to modify contract award-fee structures in accordance
with the current NASA Federal Acquisition Regulation (FAR) Supplement and articulate
adjustments made for cost overruns, there will continue to be weaknesses in the award fee
process.

In summary, based on our fieldwork and our discussions with NOAA, we reaffirm our findings
and all of the recommendations.

Agency Response to Recommendations, with OIG Comments
Recommendations 1 and 2: NOAA concurs. NOAA indicates it has developed and presented
cost and schedule tradeoff options in response to requests from the NOAA–NASA Program
Management Council (PMC) based on numerous budget questions. The tradeoff options
included supporting additional shifts for spacecraft integration and test activities and deferring
development of ground capabilities—but what remains unclear, for example, are the conditions
under which ground capabilities will be deferred or the plan for implementing this option.

In discussions with NOAA regarding our draft report recommendations, it became apparent
that the GOES-R program and National Weather Service had conflicting views about
postponing the launch of GOES-R based on GLM’s readiness. Presenting and vetting a
comprehensive set of tradeoff approaches with relevant parties would minimize such
disagreements. NOAA needs to include all tradeoff options in one comprehensive set, and
more importantly, indicate events that would trigger implementation of each option.


FINAL REPORT NO. OIG-13-024-A                                                                   21
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL

Recommendation 3: NOAA concurs. NOAA asserts, and we agree with independent
reviewers, that program systems engineering has been strengthened. This reflects an
improvement from June 2010 when the GOES-R independent review team criticized the lack of
program systems engineering leadership integrating the flight and ground projects. However,
we disagree with NOAA’s assertion that the lack of adequate systems engineering leadership
did not contribute to the delay in developing an approach (the re-plan) to resolve the flight and
ground projects’ information dependency issues.

Before the new lead program systems engineer was put into place, a significant communication
barrier existed between the flight and ground projects and the lead program systems engineer
did not have the technical leadership authority necessary to resolve issues. This lack of
leadership—in identifying the extent of the misalignment of the availability of flight information
needed by the ground project until the software requirements review—was a contributing
factor that led to the need for a costly re-plan and schedule slip.

The GOES-R program will soon start its system integration and test phase, when program
systems engineering plays an important role in ensuring proper integration of flight and ground
systems. Periodic review of the effectiveness of systems engineering both within the program
and at NASA Goddard Space Flight Center will contribute to having a robust satellite system
and meeting the launch readiness date.

Recommendation 4: NOAA concurs. NOAA agrees with the spirit of our recommendation
to validate contractors’ proposals and subsequent plans; however, it misunderstands our
recommendation’s intent. NOAA discusses the rigor of NASA’s instrument development and
review process. We do not dispute the rigor of NASA’s process. Instead, we recommend that
NOAA ensure NASA applies this process more effectively and consistently during all stages of
development, beginning with contract evaluation. In this instance, NASA did not identify an
issue during the GLM acquisition. This omission, during contract evaluation, ultimately led to
cost increases due to the need to later redirect the contractor to a proven design of sufficient
technology readiness.

Specifically, as we discuss in finding III part B, the GLM contractor identified—in its best and
final offer—its intent to change its baseline design, which had met the appropriate technology
readiness level, to another technology which did not. This change was not identified by the
source evaluation board or any of the subject matter experts tasked to help the board before
the contract was issued.

As a result, the GLM contractor proceeded with conducting trade studies from contract award
in December 2007, to the instrument’s preliminary design review (PDR) in March 2009. (A PDR
serves as an approval gate for the contractor to proceed with the instrument’s design.)
According to the program, on December 1, 2008—a year after contract award and prior to the
PDR—NASA was provided with a draft trade study concerning this design change. However, it
was not until just before PDR (i.e., over a year after the contractor changed its design) that
NASA directed the contractor to go back to the original baseline design and technology. As we
state in our finding, had this issue been identified at contact award as part of NASA’s review
process, impact to cost and schedule could have potentially been mitigated.



FINAL REPORT NO. OIG-13-024-A                                                                      22
  DEPARTMENT OF COMMERCE
U.S.                                                               OFFICE OF INSPECTOR GENERAL

Recommendation 5: NOAA does not concur. NOAA does not concur with this
recommendation to modify the ABI, GLM, and spacecraft contract award-fee structure in
accordance with the 2011 NASA FAR Supplement and clearly articulate the adjustments made
for cost overruns. NOAA asserts that the program was not expected to comply with the
NASA FAR Supplement issued in 2011 because these contracts were awarded prior to the
issuance of the Supplement. As part of its suggested factual and technical changes comments,
NOAA explained that the contracts’ limit of 61 percent for satisfactory performance is superior
to the lower limit found in the current NASA FAR Supplement because contractors will receive
no award fee for scores below 61 (the program’s methodology pays the contractor a
percentage of the award fee equal to its performance score). As it relates to modifying the fee
structure in accordance with the current NASA FAR Supplement, our finding does not state a
condition of noncompliance; rather, it encourages use of the current Supplement because it will
improve contractor incentives. Regarding NOAA’s assertions that the program’s award fee
structure for these contracts was superior to the current NASA FAR Supplement because of
the higher limit for satisfactory performance—based on our analysis, we found GOES-R award
fee plans could be more effective.

In addition to modifying the contracts’ fee structure as we recommend, NOAA should ensure
that NASA consistently adjusts scores based on cost overruns. For example, with the GLM
contract, NOAA’s award fee evaluation resulted in the replacement of the contractor project
manager. We agree with the program’s actions in that award period in which contractor
performance was especially egregious (contract value more than doubled as the result of an
overrun). However, on the ABI contract, despite the zero cost score given for the significant
cost overrun, the contractor was still able to receive 62 percent of the available award fee—
only 2 percent above the threshold for getting no award fee. In that instance, the contractor
had an overrun of $162 million (64 percent of the base contract cost)—which led the program
to score the contractor zero points for cost performance and the fee determining official to
conclude that “the amount of the overrun is so egregious that it overwhelms all the good
technical work accomplished this period by the ABI Team and puts the entire GOES-R Program
in a very bad light.” In our opinion, a higher limit for earning award fees coupled with lack of
clear guidance on adjustment for cost overruns can lead to this type of situation. To address
this situation, and to avoid inconsistency in the treatment of cost overruns, NOAA should
ensure that NASA clearly articulates how scores should be adjusted based on the magnitude of
cost overruns.

In its comments NOAA also asserts, and we agree, that NOAA is involved in the process of
determining award fees for contractors. Because of its involvement in this process, NOAA
should work with NASA to implement this recommendation for improving the methods and
plans for determining award fee.

Recommendation 6: NOAA does not concur. NOAA does not concur with our
recommendation to adjust future award fees for the ABI contract such that they are
commensurate with contractor performance and incentivize the contractor to control costs.
NOAA states that its method is clear, effective, and proven to incentivize contractors and
provided an example where its feedback to the contractor effectively improved performance in
one technical area. While the example is good, it occurred prior to the four periods addressed



FINAL REPORT NO. OIG-13-024-A                                                                 23
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL

in our finding. Our extensive analysis of the program contract documentation supporting the
program’s award fee determination decisions for ABI, GLM, and spacecraft contracts (over 28
award fee periods) reveals improvements should be implemented in the award fee process.

In our analysis, we reviewed documentation from the program and contracting officers’ files
which included award fee letters, performance evaluation reports, event monitor and event
coordinator assessment reports, contract staff comments, contractor self-assessment reports,
performance evaluation plans, and earned value metrics. Our analysis included three contracts
(ABI, GLM, and spacecraft) with a combined total of 28 award fee periods. In all we found that,
in four award fee periods specific to the ABI contract, the program did not provide the
contractor with award fees that were commensurate with its performance. Specifically:

    	 The contractor advised the program in two periods that it would have overruns totaling
       $86 million. However, the program gave little consideration of these overruns in its
       evaluation of the contractor. To date, the contract’s total overruns have reached $264
       million on a contract priced around $329 million.

    	 In three of the award fee periods, the program criticized the contractor for ineffective
       subcontractor management with statements such as “the cost and schedule issues at
       these suppliers continue to pose significant challenges to the program” and
       “subcontractor performance has been a challenge during this award fee period.”
       However, in each period, the program scored the contractor higher than we believe is
       justifiable based on the contract’s evaluation criteria.

    	 In two award periods, the program had issues interacting with the contractor. There
       were specific instances of the contractor not complying with government requests to
       cancel unnecessary testing and to use updated metrics, issuing incident reports that
       were difficult to understand, not providing promised resources, misrepresenting the
       status of a task, not providing immediate notification of problems, not holding planned
       meetings, and not providing feedback on assigned actions. However, the program did
       not adequately reflect these difficulties in its evaluation scores.

    	 In two award periods, the program evaluated contractor technical performance as
       “good” and “very good” respectively, meaning that at the very least there were
       “reportable deficiencies, but with little identifiable effect on overall performance.”
       However, the program identified that technical issues had “major cost and schedule
       impact to the program” in one period. In the other period, the program noted that half
       of the technical milestones were missed and that “delivery of the PFM [Protoflight
       Model] has slipped five months.” These assertions of significant impact to the program
       are not commensurate with the above description for a “good” rating.

Despite these issues, the program awarded the contractor 78 percent of the total award fee
pool available for these four periods.

We informed the program as early as December 2012 that we had concerns that the award
fees paid in four periods were not commensurate with contractor performance. As noted
above, after sharing our concerns with the program, we discussed these award fees with


FINAL REPORT NO. OIG-13-024-A                                                                     24
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL

program staff in detail and gave them multiple opportunities to provide documentation
supporting these award fees. However, they asserted that the award fee determinations
included substantial undocumented subjective considerations. Because these considerations are
undocumented, we were unable to include them in our review. We suggest that this
recommendation could be implemented by ensuring that, in the future, evaluation scores and
rationale are effectively validated against the program’s evaluation criteria and all significant
subjective rationale that affects the scores be documented.

Recommendation 7: NOAA concurs. NOAA concurs with this recommendation; however, in
its response, it disagreed with each part of the finding supporting this recommendation.
Because of this response, we are concerned about its understanding of the finding and
recommendation. We therefore provide the following comments to address NOAA’s
misunderstanding of the finding and reiterate the need for the recommendation.

       	 NOAA asserts that the definitization timeline did not affect the government’s ability to
          negotiate costs. However, the NOAA Acquisition and Grants Office (AGO) provided us
          documentation that specified that $79.6 million was incurred prior to the determination
          of negotiated costs for the ECPs. Also, staff from the AGO explained that in
          circumstances where definitization is significantly delayed the government has very little
          room to negotiate because only the work that has not been completed can still be
          negotiated.

       	 NOAA states that it did not execute the ECPs under UCA authority; instead, they were
          issued as change orders. We were aware that the AGO did not use UCA authority to
          execute ECPs and have been careful in our report to only include FAR statements that
          are applicable to change orders. We have used the term UCAs in the report in an effort
          to use general concepts better understood by stakeholders so as not to delve into
          contracting minutia. The risks and impacts of lengthy delays definitizing change orders
          and contract actions is the same and, thus, using UCAs is reasonable in this context.

       	 NOAA states that limited staff resources in the AGO, coupled with managing mission
          requirements, primarily contributed to delays. However, AGO staff informed us that
          having insufficient staff has only contributed to delays by a matter of a few days.

       	 NOAA states that the significance of definitization delays was communicated and
          understood. However, as mentioned in our finding, the costs incurred by the contractor
          are not tracked by the AGO or reported in the weekly meetings. As a result, the AGO
          cannot fully understand the impact of definitization delays.

       	 NOAA comments that its use of 50 percent cost limits is supported by the inclusion of
          this limit in the Defense Federal Acquisition Regulation Supplement (DFARS). However,
          we agree with GAO’s statements in a January 2010 report39 that criticized the
          Department of Defense for immediately setting cost limits to the maximum 50 percent
                                                            
39
  U.S. GAO, January 2010. Defense Contracting: DOD Has Enhanced Insight into Undefinitized Contract Action Use, but
Management at Local Commands Needs Improvement, GAO-10-299. Washington, DC: GAO, 18, 20. 



FINAL REPORT NO. OIG-13-024-A                                                                                     25
  DEPARTMENT OF COMMERCE
U.S.                                                               OFFICE OF INSPECTOR GENERAL

        permitted by the DFARS. GAO stated “contractors may have little incentive to quickly
        submit proposals and agencies have little incentive to demand their prompt submission,
        since funds are available to proceed with the work” and “obligating at or above 50
        percent may encourage extended periods of performance prior to definitization.”

NOAA Bans OIG and GAO Attendance at Program Management Council
Meetings
On November 30, 2012, the NOAA Deputy Secretary for Operations informed the Inspector
General via e-mail that his staff would not be invited to attend NOAA’s monthly Program
Management Council (PMC) meeting. In the past, OIG and GAO have been routine observers
at PMC meetings, where the NESDIS environmental satellite program management offices
report progress and issues to NOAA (and NASA) executives. Because PMCs are the highest
decision-level forum within NOAA for satellite programs, by attending these meetings, the OIG
has been able to gain valuable insight into NOAA leadership’s direction and program execution
for our ongoing satellite audits and oversight activities.

NOAA stated that one reason for banning OIG (and GAO) attendance at PMC meetings was a
recommendation in July 2012 by the NESDIS Independent Review Team (IRT) to restrict
satellite oversight activities. However, the IRT recommendation was directed specifically to
Department and NOAA executive offices and the reporting they required of satellite programs.
The IRT did not recommend restricting OIG oversight.

In an e-mail to the Inspector General on December 18, 2012, NOAA cited another reason for
restricting OIG attendance—that NOAA program managers were not “free to bring their
challenges to NOAA management without concern that pre-decisional actions or preliminary
reports will be incorporated into external reviews before NOAA has had an opportunity to
address them.” The OIG does not release predecisional material. Further, OIG’s ability to
observe the NOAA decision-making process promotes higher-quality recommendations to
improve the performance of the nearly $24 billion GOES-R and Joint Polar Satellite System
(JPSS) programs.

NOAA’s recent notification that they intend to restrict OIG attendance at other GOES-R
meetings and reviews would, if implemented, create additional obstacles to effective oversight
of the satellite programs. On February 8, 2013, we requested that NOAA provide us schedules
and attendance information for upcoming GOES-R contractor and technical reviews in order to
start planning our continued oversight and audit of the program. However, later that month,
GOES-R program management presented a briefing slide to the PMC indicating that they intend
to deny our request to attend these meetings. Again, the OIG has been a welcomed observer
at technical and contractor meetings in the past—and have gained invaluable perspective on the
GOES-R program that has made our reports more accurate and helpful to the program and
stakeholders.




FINAL REPORT NO. OIG-13-024-A                                                                26
  DEPARTMENT OF COMMERCE
U.S.                                                                       OFFICE OF INSPECTOR GENERAL

In response to two Congressional committee requests to the Department and NOAA to allow
OIG attendance at PMC meetings,40 the Inspector General directed his staff to attend the
March 2013 PMC. At the March PMC, the Acting Undersecretary for NOAA, chairing the
meeting, indicated that NOAA was still working to address the Congressional requests. As of
the date of this report, OIG attendance at PMC meeting (as well as other NESDIS satellite
oversight and technical meetings) is still restricted.

Over the past 3 months, while OIG has been banned from PMC meetings and waiting for
NOAA to resolve this issue, NOAA has spent approximately $429 million (based on NESDIS
budget plans) on its GOES-R and JPSS programs. Restricting OIG attendance hampers our
oversight of these high-cost, challenging, primary mission-essential programs and our ability to
effectively provide independent assessments to Congress and our other stakeholders.



 




                                                            
40
 Letters from House Science, Space, and Technology Committee, February 28, 2013, and House Appropriations
Commerce, Justice, Science, and Related Agencies subcommittee, March 5, 2013.




FINAL REPORT NO. OIG-13-024-A                                                                           27
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
This audit was initiated in February 2012, with fieldwork ending in November 2012. Our
objectives were to assess (1) the adequacy of contract management and administration and (2)
the effectiveness of management’s direction, monitoring, and collaboration for development of
select components of the GOES-R program.

The scope of our review included assessment of key contracts’ terms, modifications, and
amendments, as well as their impacts on schedule and costs. After identifying the universe of
GOES-R contracts and the values, risks, and challenges with each, we selected contracts for
more in-depth analysis based on the magnitude of the challenges and impacts of known risks.
We selected the ABI, GLM, core ground system (CGS), and spacecraft contracts; contract
management and administration findings in this report pertain to the four aforementioned
contracts. We also assessed integration efforts between the ground and space projects by
evaluating management’s ability to provide direction, monitoring, and collaboration in areas
such as project management and program systems engineering.

We reviewed internal controls significant within the context of our audit objectives and
employed a comprehensive methodology to achieve those objectives. Specifically, we
    	 identified and assessed the universe of GOES-R contracts,
    	 reviewed and assessed the impact of issues and risks with the program,
    	 interviewed NOAA, NASA, and contractor personnel, as well as observed selected
       program and project-level reviews locally and at contractor facilities,
    	 reviewed NOAA/NASA planning and project status documentation,
    	 reviewed past recommendations made by GAO, as well as NOAA’s standing review
       board and independent review teams, and
    	 examined program activities and documentation supporting baseline development.

Although we could not independently verify the reliability of all the information we collected,
we compared it with other available supporting documents to determine data consistency and
reasonableness. Based on these efforts, we believe the information we obtained is sufficiently
reliable for this report.

We conducted our review under the authority of the Inspector General Act of 1978, as
amended, and Department Organizational Order 10-13. We performed our work in
accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence that provides a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.



FINAL REPORT NO. OIG-13-024-A                                                                     28
  DEPARTMENT OF COMMERCE
U.S.                                                                   OFFICE OF INSPECTOR GENERAL


Appendix B: GOES-R Suite of Instruments 

Instrument                                                Functional Purpose
                                   As the primary instrument, the ABI enables forecasters to use
                                   the higher resolution images to track the development of
Advanced Baseline Imager           storms in their early stages; it offers a wide range of
(ABI)                              applications related to weather, oceans, land, climate, and
                                   hazards such as fires, volcanoes, hurricanes, and storms that
                                   cause tornados.
                                   The GLM provides early indication of storm intensification over
                                   land and ocean areas, severe weather events, and potentially
Geostationary Lightning            improved tornado warning lead time of up to 21 minutes, as
Mapper (GLM)                       well as data for long-term climate variability studies. NOAA
                                   anticipates the GLM will have immediate applications to aviation
                                   weather services, climatological studies, and severe
                                   thunderstorm forecasts and warnings.
                                   The SEISS sensors will monitor the proton, electron, and heavy
Space Environment In-Situ          ion fluxes at geosynchronous orbit; assess radiation hazard to
Suite (SEISS)                      astronauts and satellites; and provide warnings of high flux
                                   events which will mitigate damage to radio communication.
                                   The SUVI allows users to observe the sun in the extreme
                                   ultraviolet (EUV) wavelength range, characterizing complex
Solar Ultra Violet Imager          active regions of the sun, and solar flares and eruptions—space
(SUVI)                             weather that could disrupt power utilities, communication and
                                   navigation systems, and potential damage to orbiting satellites
                                   and the International Space Station.
                                   The EXIS sensor will monitor solar flares that can disrupt
Extreme Ultra Violet/X-Ray         communications and degrade navigational accuracy, affecting
Irradiance Sensor (EXIS)           satellites, astronauts, high latitude airline passengers, and power
                                   grid performance.
                                   The MAG will provide measurements of the space environment
                                   magnetic field that controls charged particle dynamics
Magnetometer (MAG)                 potentially dangerous to spacecraft and human spaceflight. In
                                   addition, it will provide alerts and warnings to many customers,
                                   including satellite operators and power utilities.
Source: OIG adapted from GOES-R program documentation


 




FINAL REPORT NO. OIG-13-024-A                                                                      29
  DEPARTMENT OF COMMERCE
U.S.                                                                         OFFICE OF INSPECTOR GENERAL


Appendix C: Potential Monetary Benefits 

                                                Questioned                Funds Put to
             Description
                                                  Costs                    Better Use
             Unsupported ABI award-
                                                  $ 8,857,750                       $0
             fee payments
             Balance of ABI, GLM,
             and spacecraft contract                       $0             $ 105,940,788
             award-fee pools
            Source: OIG adaptation and analysis of NASA contract documentation


 




FINAL REPORT NO. OIG-13-024-A                                                                        30
  DEPARTMENT OF COMMERCE
U.S.                                                                     OFFICE OF INSPECTOR GENERAL


Appendix D: Award-Fee Structure Scoring for
ABI, GLM, and Spacecraft Contracts
                                       GRADING TABLE
                                      Range of Performance
     Adjectival Rating          Points                         Description
                                         Of exceptional merit; exemplary performance in a
                                         timely, efficient and economical manner; very minor
     Excellent                  100–91
                                         (if any) deficiencies with no adverse effect on
                                         overall performance
                                           Very effective performance, fully responsive to
                                           contract; contract requirements accomplished in a
     Very Good                   90–81
                                           timely, efficient and economical manner for the
                                           most part; only minor deficiencies
                                           Effective performance; fully responsive to contract
     Good                        80–71     requirements; reportable deficiencies, but with little
                                           identifiable effect on overall performance
                                           Meets or slightly exceeds minimum acceptable
                                           standards; adequate results; reportable deficiencies
     Satisfactory                70–61
                                           with identifiable, but not substantial, effects on
                                           overall performance
                                          Does not meet minimum acceptable standards in
                                Less than one or more areas; remedial action required in one
     Poor/Unsatisfactory
                                   61     or more areas; deficiencies in one or more areas
                                          which adversely affect overall performance
    Source: OIG, adapted from NASA contract documentation

Any factor receiving a grade of “Poor/Unsatisfactory” (less than 61) will be assigned zero
performance points for purposes of calculating the award fee amount. The contractor will not be
paid any award fee when the total award fee score is “Poor/Unsatisfactory.”

In order to earn a total overall rating of “Excellent,” the contractor must be under contract
cost, on or ahead of schedule, and be rated “Excellent” under Technical Performance.




FINAL REPORT NO. OIG-13-024-A                                                                       31
  DEPARTMENT OF COMMERCE
U.S.                                                                                             OFFICE OF INSPECTOR GENERAL



Appendix E: Agency Response 

                                                                   UNITED STATES DEPARTMENT OF COMMERCE
                                                                   Tho Ooputy Under Secretary for
                                                                   Oper ations
                                                                   Washington, O.C. 20230




                                                                                           m~ :! 9 2012


               MEMORANDUM FOR:              Allen Crnwlcy
                                            Assiswm Inspector General for Systems Acquisition
                                            and IT Secut'ity



              FROM:                         David M. Kennedy [ ./..., ( lt-t             L~
                                            Depmy Under Secretary for Opemtions                            \


              SUI3JECT                      Audit qf'Geosuuiollw~· Operotional Ellvironn:ell/(1/ Sau·l/itc-R
                                            Series: Comprehe11sive Mitigation ApJ•roadt••s, Stro11g Systems
                                            Eugi11eering. and Cos/ Controls are Ne·edf'd to R(>t/uce Ri~·ks u.f
                                            Coveragt! Gaps
                                            Drnfi OIG Audi t Rcpo11


              Thank you forthc opportunity to comment on the Ontce of the Inspector Genentl's draft audit
              rc:port evaluating the evaluating the Geostationary Operational Environmental Satcllitc-R Series
              (GOES-R) acquisit ion and dcvelor>ment effort. NOt\/\ 's specific comments on the report 's
              ti ndings and recommendations are auachcd.




              Anachment




 




FINAL REPORT NO. OIG-13-024-A                                                                                            32
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-13-024-A                           33
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-13-024-A                           34
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-13-024-A                           35
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-13-024-A                           36
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-13-024-A                           37
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-13-024-A                           38
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-13-024-A                           39
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-13-024-A                           40
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-13-024-A                           41
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-13-024-A                           42
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-13-024-A                           43
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-13-024-A                           44
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-13-024-A                           45
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-13-024-A                           46
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-13-024-A                           47
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-13-024-A                           48
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-13-024-A                           49
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-13-024-A                           50
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-13-024-A                           51
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




011200000139


FINAL REPORT NO. OIG-13-024-A                           52
